Supreme Court, U,S.
FILED'

i
No.

8C

QJJ

J

AUG 2 h 2020

/

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL GLOVER

— PETITIONER

(Your Name)
vs.

STATE OF PENNSYLVANIA

— RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Pennsylvania Superior Court
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Michael Glover NJ6033
(Your Name)

1100 Pike Street
(Address)
Huntingdon, PA 16654-1112
(City, State, Zip Code)

t7T\

~'

(81A) 643-2400

(Jill It!

(Phone Number) .

|;j P pV'

it

^ p rv r

\

,._-j

't\

^ i

\

.

I

it
QUESTION(S) PRESENTED

I. DID THE PENNSYLVANIA STATE COURTS VIOLATE THE PETITIONER'S
5TH & 14TH AMENDMENT OF THE UNITED STATES CONSTITUTION WHEN
THEY FOUND THE PETITIONER GUILTY OF NUMEROUS CHARGES IN WHICH
THE EVIDENCE WAS INSUFFICIENT TO PROVE THE PETITIONER GUILTY
BEYOND A REASONABLE DOUBT.

V

■

LIST OF PARTIES

[V! All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS
1

OPINIONS BELOW

SI

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

H
5

CONCLUSION

IX
INDEX TO APPENDICES

APPENDIX A Pennsylvania Supreme Court Order denying the Petittion
For Allowance of Appeal
APPENDIX B Pennsylvania Superior Court Opinion denying the appeal

APPENDIX C Philadelphia County Coutr of Common Pleas Opinion

APPENDIX D

'

-

APPENDIX E

APPENDIX F

/

i

TABLE OF AUTHORITIES CITED
PAGE NUMBER
CASES
Commonwealth v. Brown. 484 A.2d 738, 742 (Pa. 1984)
Commonwealth v. Bullock. 170 A.3d 1109 (Pa. Super 2017)
Commonwealth v. Fortune. 68 A.3d 980, 984 (Pa. Super 2013)
Commonwealth v. Hubbard, 372 A.2d 687, 692 (Pa. 1977)
Commonwealth v. Matthews, 870 A.2d 924 (Pa. 2005)
Commonwealth v. McNair, 546 A.2d 688, 690 (Pa. Super 1988)
Commonwealth v. Smith, 481 A.2d 1352 (Pa. Super 1984)
Commonwealth v. Woong Knee New. 47 A.2d 450, 468 (Pa. 1946)

10
8
8
8
7
10
11
8

STA TUES AND RULES

18 Pa.C.S.A. § 901 (A)
18 Pa.C.S.A. § 907(A),
18 Pa.C.S.A. § 302(b)(l)(i)
18 Pa.C.S.A. § 2301
18 Pa.C.S.A. § 2702(A)(1)
18 Pa.C.S.A. § 2709.1(a)(1)

8
6
7
7
7
11

ii

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[Vj For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix ^
to the petition and is
[ ] reported at _
; or,
[ ] has been designated for publication but is not yet reported; or,
[yfis unpublished.
The opinion of the Philadelphia County Common Pleas
appears at Appendix _C___ to the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[i/T is unpublished.
1.

court

JURISDICTION
[ ] For cases from federal courts: .
The date on which the United States Court of Appeals decided my case
was
...
------------------- ■
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: -----------------order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including___ _—
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[Y] For cases from state courts:
The date on which the highest state court decided my case was May 27, 2020
A copy of that decision appears at Appendix -A------[ ] A timely petition for rehearing was thereafter denied on the following date:
__________■
_____ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including ____
Application No. ___A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

a

I*’

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The 5th & 14th Amendments of the United States Constitution

3

STATEMENT OF THE CASE
On March 17, 2016, Petitioner was arrested and charged on six separate
complaints in Philadelphia Municipal Court. On April 19, 2016, petitioner was
arrested and charged with additional crimes on a separate complaint. Pursuant to the
Commonwealth’s motion to consolidate, on September 16, 2016, Judge Woelpper
ordered that all of the matters be consolidated for trial.
On February 9, 2018, Petitioner waived his right to a trial by jury and
immediately thereafter commenced a bench trial before Judge Woelpper. After a
two-day trial, on February 13, 2018, the petitioner was found guilty of numerous
offenses.
The petitioner then filed a timely appeal to the Pennsylvania Superior Court,
which affirmed the lower court’s decision on December 6, 2019.
Petitioner went on to file a Petition for Allowance of Appeal with the
Pennsylvania Supreme Court, which was'denied on May 27, 2020.

* k

4

REASONS FOR GRANTING THE PETITION

The Pennsylvania State Courts have made erroneous factual
findings as well as misapplied numerous rules of state law and as such
have violated the petitioner’s United States Constitution’s 5th & 14th
Amendments.

.0

Docket CP-51-CR-0003675-2016
The lower court convicted Petitioner of Robbery and PIC based on
Petitioner’s interaction with Ms. Miles outside of her place of work on
February 1,2016. The evidence, however, failed to support those verdicts.
Ms. Miles testified that Petitioner got into the passenger seat of her car
while she was on the phone (N.T. 2/9/18, p. *15). She testified that she could
not remember if her phone was in her hand or under her radio (id). According
to Ms. Miles’s testimony, Petitioner “snatched” the phone and when she tried
to reach for it, Petitioner “hit [her] on [her] face with [] the bottom of [the]
phone” (jd). She did not testify to any contemporaneous threats or any bodily
injury she suffered. Nor did Ms. Miles testify that she was in fear of immediate

dT

■s '• -K' r

V '

bodily injury. As such, the evidence was insufficient to find Petitioner guilty
of that charge.
In relation to the same March 1st incident, the lower court found
Petitioner guilty of PIG. That crime is established when the government
proves that a person “possesses any instrument of crime with intent to
employ it criminally.” 18 Pa.C.S.A. § 907(a). An “instrument of crime is further
defined as “[ajnything specially made or specially adapted for criminal use[,]”
or “[ajnything used for criminal purposes and possessed by the actor under
circumstances not manifestly appropriate for lawful uses it may have.” §
907(d).
The evidence presented did not prove that Petitioner possessed the.
phone with the intent to employ it criminally. Indeed, the evidence
established that, when the phone struck Ms. Miles’s head, it was during a
struggle. Petitioner could not have had the intent to employ the phone with a
criminal intent, as the entire struggle was a spontaneous and unpredictable
event. And though the evidence established theft, but the fact that an item
was stolen does not render it an instrument of crime. Ms. Miles was struck in
the head with the phone, but it occurred during a struggle. Though Petitioner
committed several offenses during the interaction with Ms. Miles, the
evidence did not support a finding that Petitioner is guilty of PIC.

Qy

Docket CP-51 -CR-0003670-2016
On this docket, the Commonwealth charged Petitioner with various
crimes arising on March 12, 2016 outside of Ms. Miles’s home. This docket
charges only crimes in which Ms. Miles - and not her sister - was the
complaining witness.
The Commonwealth charged Petitioner with Aggravated Assault,
graded as a felony of the first degree. In order to prove an actor committed
Aggravated Assault as a felony of the first degree, the Commonwealth must

%

prove that “he attempted] to cause serious bodily injury to another, of
cause[d]

such

injury

intentionally,

knowingly

or

recklessly

under

circumstances manifesting extreme indifference to the value of human life[.j”
18 Pa.C.S.A. § 2702(a)(1). “Serious bodily injury” is “[bjodily injury which
creates a substantial risk of death or which causes serious, permanent
disfigurement, or protracted loss or impairment of the function of any bodily
member or organ.” 18 Pa.C.S.A. § 2301.
“A person acts intentionally with respect to a material
element of an offense when ... it is his conscious
object to engage in conduct of that nature or to cause
such a resultf.]” 18 Pa.C.S. § 302(b)(1)(i). “As intent
is a subjective frame of mind, it is of necessity difficult
of direct proof.” Commonwealth v. Matthews, 870
A.2d 924, 929 (Pa. 2005) (citations omitted). “[Ijntent
can be proven by direct or circumstantial evidence; it
may be inferred from acts or conduct or from the
attendant circumstances." Id.

~7

■ ' --v

“A person commits an attempt when, with intent to
commit a specific crime, he does any act which
constitutes a substantial step toward the commission
of that crime.” 18 Pa.C.S. § 901(a). For purposes of
an Aggravated Assault charge, “an ‘attempt’ is found
where an accused who possesses the required
specific intent acts in a manner which constitutes a
substantial step toward perpetrating a serious bodily
injury upon another. An intent ordinarily must be
proven through circumstantial evidence and inferred
from acts, conduct or attendant circumstances.”
Commonwealth v. Fortune, 68 A.3d 980, 984 (Pa.
Super. 2013) (en banc) (internal citations omitted).
Commonwealth v. Bullock, 170 A.3d 1109 (Pa. Super. 2017).
When two . equally reasonable and mutually
inconsistent inferences can be drawn from the same
set of circumstances, a jury must not be permitted to
guess which inference it will adopt, especially when
one of the two guesses may result in depriving a
defendant of his life or his liberty.
Commonwealth v. Hubbard, 372 A.2d 687, 692 (Pa. 1977), (quoting
Commonwealth v.Woong Knee New, 47 A.2d 450, 468 (Pa. 1946)).
Here, the Commonwealth failed to specifically allege what act
Petitioner engaged in that would constitute the crime. The Commonwealth’s
evidence established that Petitioner dragged Ms. Miles “just a little bit” (N.T.
2/9/18, p. 42) and that his car collided with her car (id. at 43). But the result
of these acts resulted in a back ache, body ache and scratches to Ms. Miles’s
arm (id, at 46). Those injuries do not establish serious bodily injury. Thus,
the Commonwealth was obliged to prove that Petitioner intended to cause

f

t'-’T'

.

serious bodily injury. Petitioner could have continued to drag Ms. Miles. And
he could have struck her vehicle in a spot closer to her or her sister. But he
did not. His actions were certainly reckless, and dragging Ms. Miles satisfied
Aggravated Assault, as a felony of the second degree. But his actions did
not constitute the crime as a felony of the first degree.
Docket CP-51 -CR-0003671-2016
On this docket, the Commonwealth charged Petitioner with his actions
on March 12, 2016 outside of Ms. Miles’s home, but with Nadia as the
complaining witness. As with the docket charging Petitioner with his
contemporaneous actions toward Mr. Miles, the charges against Petitioner
regarding Nadia do not specify whether the charges are based on him
backing up his car toward Nadia or colliding with Ms. Miles’s car, in which
Nadia was a passenger. But under either standard, the Commonwealth’s
evidence fails.
Nadia testified that, as a result of the incidents, she was “sore” but did
not have to go to the hospital (id. at 115). As a result, the Commonwealth
had to prove that Petitioner intended to cause serious bodily injury to sustain
a conviction for Aggravated Assault, graded as a felony of the first degree.
But the evidence merely established that Petitioner was reckless. No

I

■'

evidence supported the conclusion that Petitioner consciously engaged in
conduct likely to result in serious bodily injury.
Likewise, the Commonwealth’s evidence did not prove a distinct count
of PIC. If anything, the charge was duplicative of the PIC charge on docket
3670-2016. But more importantly, the Commonwealth did not prove that
Petitioner used the vehicle criminally toward Nadia. His actions were
reckless, not criminal. As such, the evidence was insufficient.
Docket CP-51 -CR-0003672-201&
The lower court convicted Petitioner of Robbery, under subsection
(a)(1)(iv) of Section 3701, thus making the crime a felony of the second
degree (the Commonwealth had charged Petitioner with a felony of the first
degree). But the testimony and evidence failed to established the force
however slight - necessary to sustain any gradation of robbery. Ms. Miles
testified that the phone “slipped” out of her hand. She did not testify to any
force being used to take the phone.
In Commonwealth v. Brown, 484 A.2d 738, 742 (Pa. 1984), and
Commonwealth v. McNair, 546 A.2d 688, 690 (Pa. Super. 1988), our
Supreme Court and this Court held that snatching a bag or purse off of a
victim was sufficient force to elevate theft to robbery. But in both of those
cases, the victim was able to establish force exerted by the accused. That is

to

lacking in the instant matter. Petitioner’s case is similar to that in
Commonwealth v. Smith, 481 A.2d 1352 (Pa. Super. 1984), where the
evidence was found to be insufficient. There, the defendant took a pack of
cigarettes from a blind person. And since that victim was not able to testify
as to any force, the evidence could not support robbery. Jd at 1353. As with
Petitioner’s case, there simply was no force exerted to accomplish the crime.
Thus, it is a theft, not a robbery.
In addition, the Commonwealth charged Petitioner with Staling, under
Section 2709.1(a)(1). A person commits an offense under that subsection
when he “engages in a course of conduct or repeatedly commits acts toward
another person, including following the person without proper authority
under circumstances which demonstrate either an intent to place such other
person in reasonable fear of bodily injury or to cause substantial emotional
distress to such other person[.]” 18 Pa.C.S.A. § 2709.1 (a)(1). Inherent in that
charge is a “course of conduct” or repeated acts toward another person. Id
Here, the Bills of Information set forth a single date - March 14, 2016 - and
the evidence supported only that single date. He was charged with the same
offense on other dockets, thus this charge was duplicative and unsupported
by the evidence.

//

k.;

w

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

/V

